October 30, 2003

MEMORANDUM
FOR:          Mark Ward, Director, USAID/Pakistan

FROM:         Bruce N. Boyer, RIG/Manila /s/

SUBJECT:      Risk Assessment of Major Activities Managed by
              USAID/Pakistan, Report No. 5-391-04-001-S


This memorandum is our report on the subject risk assessment. This is not an audit
report, and it does not contain any recommendations for you. Your management
comments on the draft report are included in their entirety in Appendix II to this
report. I appreciate the cooperation and courtesy extended to us during the risk
assessment.




                                                                                1
(This page intentionally left blank.)




                                        2
Background
             Since Pakistan’s independence in 1947 the United States has contributed
             approximately $8 billion in foreign assistance to the country, touching every
             development sector. However, in 1995, USAID closed its Mission in Pakistan
             under Congressional sanctions resulting from Pakistan’s nuclear weapons
             program. From 1997 to 2002, USAID’s assistance to Pakistan consisted of grants
             to non-governmental organizations to strengthen civil society and improve the
             delivery of basic social services. These grants focused primarily on education,
             health, and community development as Pakistan remained a USAID “non-
             presence” country.

             However, as a result of the terrorist attacks in the U.S. on September 11, 2001 and
             subsequent negotiations with the U.S. Government, the Government of Pakistan
             committed to resolve a host of longstanding problems and to forge a partnership
             with the U.S. to fight terrorism. Few U.S. foreign policy objectives rank higher
             than supporting Pakistan’s efforts to make good on these commitments. In
             response to Pakistan’s initiatives, the U.S. has waived its sanctions and resumed a
             long-term assistance program.

             Consequently, the USAID Mission in Pakistan was reopened in July 2002 to
             enable the rapid scale-up and implementation of development assistance programs
             in four sectors: education, health, governance, and economic growth. Bilateral
             Strategic Objective Agreements have been signed with the Government of
             Pakistan for each of these sectors. Total life of project funding and obligations as
             of August 2003 amounted to $306 million and $66.5 million, respectively, and are
             broken down as follows:

                         Table 1: Developmental Assistance - USAID/Pakistan
                                        (as of August 22, 2003)

                                                              $ Millions
                           Sector
                                              Life of Project              Obligated
                    Education                     100.0                      36.9
                    Health                        115.0                      15.7
                    Governance                     38.0                       8.9
                    Economic Growth                53.0                       5.0
                           Total                  306.0                      66.5

             According to Mission records, disbursements in these sectors as of August 31,
             2003, amounted to approximately $3.6 million.

             In addition to these expenditures, since September 11, 2001, the U.S. has
             provided $788 million in non-project assistance to the Government of Pakistan.
             A $600 million Economic Support Fund (ESF) grant in November 2001, managed


                                                                                               3
             by USAID/Washington, reduced Government of Pakistan debt owed to the U.S.,
             the World Bank and the Asian Development Bank.1 And more recently in fiscal
             year 2003, $188 million in debt relief from the ESF has allowed Pakistan to retire
             $1 billion in outstanding U.S. official debt,2 approximately one-third of its
             remaining U.S. debt.

             Current annual funding for developmental assistance amounts to about $50
             million but is expected to increase three-fold to as much as $150 million per year
             over the next several years. In addition, another $200 million in non-project
             assistance is planned for fiscal year 2004, to be used again for debt relief and/or
             budget support. Moreover, an additional $1.5 billion in non-project assistance
             beginning in fiscal year 2005—$300 million per year over 5 years—was
             announced by President Bush in June 2003. Thus, Pakistan has emerged as one of
             the largest recipients of U.S. foreign assistance.


Discussion
             To prioritize Office of Inspector General (OIG) workload and determine what
             type of audit coverage is appropriate for individual activities being funded and
             managed by the Mission, the OIG performed risk assessments of
             USAID/Pakistan’s operations as a whole and of those activities planned to date.
             The results of the risk assessment of USAID/Pakistan operations as a whole are
             presented immediately below, and the results of the individual activity
             assessments are presented under the "Individual Activity Risk Assessments"
             heading (with details provided in Appendix III).

             Overall Risk Assessment

             The OIG assessed the overall risk related to USAID/Pakistan’s ability to manage
             assistance activities. In assessing overall risk, the OIG considered several key
             factors including the significance and sensitivity involved with the Mission’s
             program, the management support and control environment, relevant internal
             controls, and susceptibility to failure to attain program goals, to noncompliance,
             and to other irregularities. (See Appendix I for a complete description of the
             scope and methodology.) The OIG assessment concluded that because of the
             precarious security situation in Pakistan, staffing constraints and challenges, and
             restrictions on the travel of official Americans outside of the capital city, the
             overall risk for program goals not being attained is high—although the Mission
             has taken steps to address this risk.

             ______________________
             1
              The OIG performed a limited scope audit of this grant. See Audit Report No. 0-000-03-001-F,
             dated January 7, 2003: Audit of USAID’s Bureau for Asia and the Near East Monitoring of the
             Government of Pakistan’s Compliance with the Provisions of USAID Grant No. 391-K-005.
             2
              The $188 million represents the net present value of certain long-term debt servicing payments
             due from Pakistan that total $1 billion.

                                                                                                          4
The overriding constraint to managing assistance activities in Pakistan is the
dangerously high security threat to U.S. personnel—Pakistan is a 25 percent
danger pay post. In addition, because of the security situation, travel by both U.S.
and Foreign Service National (FSN) personnel to program activity sites outside of
Islamabad is restricted. Therefore, routine direct monitoring of program activities
by Mission personnel is made extremely difficult.

In addition to (and also related to) the precarious security situation, is the issue of
recruiting and maintaining adequate levels of qualified U.S. Mission staff.
Because of the security situation, family members of U.S. staff are not permitted
at post. Thus, attracting and assigning qualified U.S. staff to Pakistan is made
more difficult because there is a reduced pool of personnel who might be
interested in bidding on openings in Pakistan. In addition, being a dangerous
post, assignments of U.S. personnel to Pakistan are for one year (as opposed to
the four-year standard assignment). This contributes to a high rate of turnover of
U.S. staff and impacts on continuity of operations. Continuity of operations
further suffers because U.S. direct hire staff are granted two rest and recuperation
trips for each one-year tour, in contrast to a norm of one at most other hardship
posts. This results in U.S. direct hire staff being away from post more than
normal.

A further challenge is that the security situation impacts overall staffing levels as
well. Accordingly, the U.S. Embassy has attempted to keep the number of
official Americans working in Pakistan as low as possible. In addition, all
sections and agencies at post are encouraged to limit visitors as much as possible.
As the Mission itself has pointed out in its Interim Strategic Plan dated May 2003,
such limitations relating to the security situation “have real impact on the
Mission’s ability to monitor project activities and meet with partners and
counterparts.”

To respond to these staffing challenges and to mitigate the risks of American
personnel not being able to travel freely, the Mission is trying to build a program
that can be managed largely by Pakistani professionals, both with regard to its
own staff as well as the staff of its partner organizations. The Mission has called
this “building a bomb proof program,” in reference to bombings and security
threats that have forced evacuations of U.S. personnel in the past. The Mission’s
Interim Strategic Plan dated May 2003 notes that there have been three
evacuations of U.S. personnel in the last two years (the last being at the beginning
of the Iraq war) and that expatriate staff associated with USAID’s programs may
have to be evacuated one or more times in the future. As a result, the Mission is
making the engagement of “Pakistani management” (as opposed to expatriate
management) an “evaluation criteria in all competitive actions,” is limiting
“competitions to Pakistani organizations whenever possible,” and is encouraging
“all U.S.-based organizations to partner with indigenous organizations.”



                                                                                     5
In addition, the Mission has carried over this approach to a number of its own in-
house functions. Thus, the Mission is outsourcing some of its financial review
and analysis functions to a local accounting firm. The Mission is also currently
reviewing contract proposals for local Pakistani organizations to monitor and
evaluate USAID program activities throughout the country.

With regard to hiring staff, the Mission has done a lot in a relatively short time. It
has been able to fill its fiscal year 2003 authorized level of seven U.S. direct hire
personnel by February 2003 (the Mission only opened in July 2002).
Furthermore, as a group, all seven U.S. direct hire personnel are experienced
USAID professionals. Moreover, it is a credit to Mission leadership that almost
all current U.S. direct hire (USDH) staff have bid on, and have been approved for
one-year tour extensions. In addition, filling authorized non-U.S. positions will
be complete once security clearances have been obtained for three applicants
already offered employment and for a fourth position for which interviewing has
just begun. However, because of the seven-year gap between the closure of the
Mission and its reopening, the non-U.S. staff have little previous USAID
experience.

With regard to office space, a lot has been done since the Mission reopened.
When the Mission Director arrived in July 2002, there were no offices. USAID’s
former office building had been turned over to the host government in 1995. So
the Mission took over and renovated a warehouse on the Embassy compound,
turning it into a bright and efficient office.

Finally, on the program side, the Mission has managed to pull together a focused
assistance program in a time period when it was still largely engaged in hiring
staff and getting the former warehouse ready for occupancy. Notably, since
reopening in July 2002 the Mission has:

•   Signed four strategic objective grant agreements, totaling $306 million, with
    the host government;

•   Developed a three-year interim strategic plan for these four strategic
    objectives and for future budget support to the Government of Pakistan, even
    though a simpler one-year plan would have been acceptable to
    USAID/Washington; and

•   Started planning for the new five-year, $1.5 billion assistance program which
    begins in fiscal year 2005.

In summary, the Mission has accomplished a lot in one year. It has put into place
a functioning staff, office and program in a very short timeframe and in a very
insecure and dangerous environment. In addition, the Mission has taken positive,
creative actions to address the difficult staffing and security situations with which

                                                                                    6
it is faced. Nevertheless, overall risk remains high. This high risk is amplified
by (1) the magnitude of the funding being provided to Pakistan, (2) the pressure to
design and implement activities in short timeframes, (3) the potential for terror
strikes and more evacuations from post, and (4) the risks associated with high
reliance on indigenous organizations and management.

Individual Activity Risk Assessments

The individual activity risk assessments which we performed included an analysis
of risk in four distinct areas:

•   Nature of the Implementing Entity – What experience does USAID have with
    the implementing entity? Is the implementing entity new to USAID or does it
    have a lot of USAID experience?

•   Amount of Funding – All other things being equal, larger activities will
    receive more audit coverage.

•   Implementing Arrangements – Are there any special implementing
    arrangements that will either increase or decrease risk?

•   Nature of Activities Financed – How inherently vulnerable are the activities?
    (For example, construction activities are inherently much more vulnerable
    than technical assistance activities.)

The OIG assessed risk in each of these areas and based on this information, made
judgments about what type of audit coverage would be cost effective and useful.
Generally speaking, higher-risk activities are covered by performance audits
and/or financial audits. Performance audits are conducted by the OIG, and
financial audits of indigenous organizations are done by local public accounting
firms under OIG supervision. For activities judged to be of exceedingly high risk,
“concurrent” audits may be recommended. These can be performance audits or
financial audits. Concurrent performance audits may consist of a series of two or
more performance audits on a single activity. Concurrent financial audits are
financial audits that are conducted more often than just once a year—possibly as
often as every quarter when risk is judged to be extremely high. Generally,
activities judged to be of medium risk will receive a single performance audit—or
none at all, and/or a normal annual financial audit of expenditures. Activities of
lower risk, especially if funding for those activities falls below certain thresholds,
may receive no special audit coverage at all.

The table on the following page summarizes the results of our individual activity
risk assessments for seven Mission-funded activities underway by August 22,
2003.



                                                                                    7
                 Table 2: Individual Activity Risk Assessments
     For Mission-Funded Activities with Commitments in Excess of $300,000
                            (as of August 22, 2003)

                                               Assessed Risk Relating to…
                                                                 Nature of
    Mission-Funded Activities     Implementing Implementing                      Amount of
                                                                 Activities
                                    Entities    Arrangements                      Funding
                                                                 Financed
    Education Sector Reform
    Assistance Program              Medium            High            High           High

    Creating Democratic
    Schools in Pakistan             Medium          Medium            High         Medium

    Agreement for Examination
    Board Establishment               High            High          Medium           High

    Releasing Confidence and
    Creativity Program                Low             High            High           Low

    Pakistani Teacher Education
    and Professional                Medium          Medium            Low            High
    Development Program
    Supporting Democratic
    Development in Pakistan         Medium            High            High         Medium

    Developing Open Media in
    Pakistan Program                  Low           Medium            High           Low




Appendix III discusses in detail the risk assessments for the seven activities in the
table above and the types of audit coverage the OIG considers appropriate given
the assessed risk exposure.

In addition to the activities listed above, the Mission had a large number of
activities in the design and/or procurement stage that are to be implemented by
local non-governmental organizations—and in two cases with local government
entities. Many of these activities will likely exceed the threshold at which audits
are required and will need to be included in the Mission’s audit universe for fiscal
year 2004.3 In addition, some of the activities being considered are inherently
risky (such as school construction in an area that is generally off-limits to
foreigners) and many are being carried out by entities that have never handled
USAID funds before. Accordingly, many such activities should be considered for
inclusion in the Mission’s audit universe even though annual expenditure rates
may not exceed the audit threshold.
______________________
3
  Audits of non-U.S. grantees and contractors are required when $300,000 or more is expended in
a fiscal year.

                                                                                             8
                 Photograph of USAID/Pakistan Education Officer (seated in front 2nd from left) and RIG/Manila
                 auditor (standing in front 3rd from left) observing a USAID-funded teaching program in a 1st grade
                 class at the Federal Government Junior Model School in Islamabad, Pakistan, August 26, 2003.

                 In conclusion, for the seven activities assessed in Table 2 on page 8 above, risk
                 generally ranges from medium to high. Planned audit coverage to address these
                 risks is found in Appendix III.


Management       In response to our draft risk assessment report, USAID/Pakistan provided written
Comments and     comments that are included in their entirety as Appendix II. The Mission agreed
                 with the risks identified in the report and believed they were taking appropriate
Our Evaluation   actions “to minimize vulnerabilities.”




                                                                                                                 9
(This page intentionally left blank.)




                                        10
                                                                                         Appendix I


Scope and
              Scope
Methodology
              The Regional Inspector General/Manila conducted a risk assessment of
              USAID/Pakistan’s operations as a whole and all major activities that were underway
              or planned as of August 22, 2003. This risk assessment was not an audit. The risk
              assessment fieldwork was conducted at the USAID office in Islamabad, Pakistan
              from August 18 through 28, 2003.

              Our risk assessments of USAID/Pakistan operations have the following limitations
              in their application.

              •   First, we assessed risk for activities funded and managed by USAID/Pakistan,
                  but not for activities in Pakistan which were funded and managed by
                  USAID/Washington.

              •   Second, we assessed risk only. Our risk assessments were not sufficient to make
                  determinations of the effectiveness of internal controls for major functions.
                  Consequently, we did not generally determine (a) the adequacy of internal
                  control design, (b) if controls were properly implemented, and (c) if transactions
                  were properly documented.

              •   Third, higher risk exposure assessments are not definitive indicators that
                  program objectives were not being achieved or that irregularities were occurring.
                  A higher risk exposure simply indicates that the particular function is more
                  vulnerable to such events.

              •    Fourth, risk exposure assessments, in isolation, are not an indicator of
                  management capability due to the fact that risk assessments consider both
                  internal and external factors, some being outside the span of control of
                  management.

              Methodology

              We interviewed officials and reviewed relevant documentation on the strategic
              objective activities being carried out, and being planned, by USAID/Pakistan. These
              discussions and documents covered background, organization, management,
              budget, staffing responsibilities, Federal Managers’ Financial Integrity Act
              reviews, internal controls, and vulnerabilities as we considered necessary to gain
              an understanding of the actual and potential problems in implementing programs.

              We determined the overall risk exposure for all activities within USAID/Pakistan,
              e.g., the likelihood of significant abuse, illegal acts, misuse of resources, failure to
              achieve program objectives, and noncompliance with regulations and management



                                                                                                   11
                                                                                Appendix I

policies. Higher risk exposure assessments are not definitive indicators that program
objectives are not being achieved or that irregularities are occurring. A higher
assessment simply indicates that the Mission is more vulnerable to such events. We
considered the following key areas in assessing risk:

•   Significance and sensitivity;

•   Susceptibility of failure to attain program goals, noncompliance with laws and
    regulations, inaccurate reporting, or illegal or inappropriate use of assets or
    resources;

•   Management actions to mitigate risk;

•   Competence and adequacy of the number of personnel;

•   Relevant internal controls; and

•   What is already known about internal control effectiveness.

In addition, we conducted vulnerability assessments of each major program activity
that had commitments of at least $300,0004 as of August 22, 2003, by assessing risk
as high, moderate, or low in each of these four areas:

•   Nature of the entity implementing the activity,

•   Total amount of funding planned for the activity,

•   Implementing arrangements for the activity, and

•   Nature of activity being financed.

We used professional judgment in coming to a conclusion about the types of audit
coverage that would be useful.

These risk assessments were not sufficient to make definitive determinations of the
effectiveness of internal controls for major programs. As part of the effectiveness of
internal controls, we did (a) identify, understand, and document (only as necessary)
relevant internal controls, and (b) determine what was already known about the
effectiveness of internal controls. However, we did not generally (a) assess the
adequacy of internal control design, (b) determine if controls were properly
implemented, nor (c) determine if transactions were properly documented.


______________________
4
  We chose to look at activities with commitments in excess of $300,000 because we judged that
they would be far enough along to enable us to assess risk.



                                                                                           12
                                                                                    Appendix II


Management
Comments
                                                                                October 6, 2003

             Mr. Bruce Boyer
             Regional Inspector General
             USAID/Philippines
             Manila, Philippines

             Subject:        Draft Report on Risk Assessment of Major Activities Managed
                             by USAID/Pakistan

             Dear Bruce,

             My staff and I have reviewed the subject draft report, and agree with your basic
             conclusions.

             The USAID/Pakistan program has been crafted to meet the challenging security
             conditions in this country. The tragedy of 9/11 has radically changed the geo-
             political landscape of the region. In order for USAID to help meet our country’s
             high priority foreign policy objectives in the region, it has to adopt new ways of
             doing business, with higher risk tolerance, to operate effectively in strategically
             important countries such as Afghanistan, Iraq and Pakistan.

             Risk assessments are valuable tools for management under any circumstances, but
             they are especially helpful in challenging security environments like the one we
             face everyday in Pakistan. As noted in your report, the Mission will be
             particularly challenged in monitoring program performance given staffing
             constraints and the security environment. We are pleased that RIG/Manila
             responded favorably to our planned program performance approach.

             The Mission acknowledges the risks identified in the report. We believe we are
             taking appropriate actions to minimize vulnerabilities at all levels of program
             implementation. The Mission will be proactive in communicating our results to
             your office. There will likely be room for improvement as we move from design
             to implementation and your suggestions will always be welcome.




                                                                                                13
                                                                    Appendix II


USAID/Pakistan thanks you for taking the time to conduct this important
assessment. Your analysis has been useful and provided us the opportunity to
review and strengthen existing management controls and improve operating
procedures.


                                                      Sincerely,



                                                      Mark S. Ward /s/
                                                      Mission Director




                                                                               14
                                                                                                   Appendix III



Individual      1. Education Sector Reform Assistance (ESRA) Program
Activity Risk
Assessments                                                                                    Overall Risk
                      Implementing Entity                    Strategic Objective
                                                                                                Exposure

                 Research Triangle Institute (RTI)                   Education                      High



                                                 Planned Audit Coverage


                 A performance audit in late fiscal year 2004 to assess whether the program is on track to
                 achieve intended benefits.



                                                 Risk Assessment Factors


                 Nature of Implementing Entity— U.S. non-governmental organization. RTI is part of a
                 University and as such the Cognizant Technical Officer has indicated a lot of confidence in the
                 competence of the entity. RTI’s Chief of Party (COP) and deputy COP are American but both
                 have had prior experience in Pakistan. The rest of the staff is Pakistani. The risk is considered
                 medium.

                 Amount of Funding— This is a $60 million cooperative agreement. The risk is considered
                 high because of the amount of funding for this grant and because of the large amount of other
                 USAID funding in the education sector.

                 Implementing Arrangements— The Education Sector Reform Assistance program is
                 extremely complex with numerous U.S. and Pakistani partners. The risk is considered high
                 because of these numerous partners.

                 Nature of Activities Financed— Technical assistance in the area of primary education,
                 including training for school personnel. Also, special literacy programs for out-of-school
                 youth and young adults. The program is being implemented primarily in the provinces of
                 Sindh and Balochistan, where “Whole District Initiatives” are being established in eight
                 districts. Stringent security measures are in place in these provinces which restrict the ability
                 of U.S. personnel to travel freely. Travel in the two provinces must be pre-approved by the
                 Embassy. In some areas overland travel by Americans is prohibited. In other areas, security
                 escorts are required. In addition, the program includes macro-level initiatives to improve the
                 quality of education and a grants program to encourage local stakeholders to support program
                 initiatives. The risk is considered high.

                 Other risks: One of the two provinces is cautious about devolving responsibility for education
                 to the districts. Also, the Government of Pakistan might not release required resources—
                 including teacher salaries—in a timely way, thus impeding project progress. Overall risk for
                 the activity is considered high because of heavy reliance on host government actions and
                 resources and because security restrictions could impede adequate monitoring.
                                                                                                                 15
                                                                                  Appendix III

2. Creating Democratic Schools in Pakistan Program

                                                                              Overall Risk
      Implementing Entity                    Strategic Objective
                                                                               Exposure

 Children’s Resources International                 Education                     Medium
 (CRI)


                                 Planned Audit Coverage


 No special audits planned at this time, although performance under this grant could
 conceivably be audited as part of the performance audit of the Education Sector Reform
 Assistance Program (see previous page).


                                Risk Assessment Factors


 Nature of Implementing Entity— U.S. non-governmental organization. CRI has no previous
 Pakistan experience. However, their office in Islamabad is headed by a Pakistani who was
 formerly with the Asian Development Bank. There are no expatriates on CRI’s in-country
 staff. CRI has done early childhood programs in numerous countries worldwide. Risk with
 regard to the implementing entity is considered medium.

 Amount of Funding— Current life-of-project funding is at $2.3 million, but additional funds
 are likely to be added. The risk is therefore considered medium.

 Implementing Arrangements— In implementing the Creating Democratic Schools program,
 CRI trains teachers in program methodology in-country. CRI produces certain curriculum
 materials in Washington, and then sends them to Pakistan for translation. Some training in
 program methodology and in the use of these materials, is being done by U.S. trainers, but it is
 increasingly being done by Pakistani “Master Teacher Trainers.” Even though the program
 has experienced some delay in translating curriculum materials into Urdu, the risk relating to
 these implementing arrangements is considered medium.

 Nature of Activities Financed— Technical assistance in the area of early childhood
 education which is designed to bring about “child-centered” teaching. This technical
 assistance includes training for school personnel and literacy training for parents—some of
 whom (in a departure from standard practice in Pakistan) then assist in the classroom. The
 program is being established in 96 schools in Islamabad, Rawalpindi and Karachi. Note that
 Karachi is in Sindh province and certain travel restrictions apply to Americans (see discussion
 of restrictions on previous page).

 Other risks: As of May 2003, CRI indicated they were uninformed about USAID’s
 performance reporting requirements; however, they have since submitted a “Performance
 Monitoring Plan” and are developing baselines for performance measurement. Because of
 concern that strong indicators may not be in place and because of security restrictions in
 Sindh, risk in this area is considered high.



                                                                                                16
                                                                                Appendix III

3. Agreement for Examination Board Establishment

                                                                            Overall Risk
      Implementing Entity                   Strategic Objective
                                                                             Exposure

 Aga Khan University (AKU)                         Education                      High



                                Planned Audit Coverage


 Annual financial audits conducted by a local public accounting firm.


                                Risk Assessment Factors


 Nature of Implementing Entity— Pakistan private university. Aga Khan University was
 chartered as Pakistan’s first private university in 1983. The University is well regarded, but
 this will be its first USAID grant. The risk is therefore considered to be high.

 Amount of Funding— Life-of-project funding totals $4.5 million. Annual expenditures
 under this four-year agreement should therefore be well over the annual $300,000 amount
 which would trigger a financial audit for a non-U.S. recipient. Therefore a financial audit is
 required. Risk is considered high.

 Implementing Arrangements— The agreement with the University for the Examination
 Board Establishment program was signed in August 2003. The agreement includes the
 following elements: an indirect cost rate, program income, and cost sharing requirements.
 Therefore the risk for this first-time USAID recipient is considered high.

 Nature of Activities Financed— This is a four-year grant to promote improvement of the
 quality of education through examinations for the secondary school certificate and the higher
 secondary certificate, training of teachers, and development of supplementary materials. The
 Mission performed a pre-award assessment of the University and found adequate systems in
 place. Considering the nature of the activities financed the risk is considered medium.




                                                                                              17
                                                                                   Appendix III

4. Releasing Confidence and Creativity Program

                                                                               Overall Risk
      Implementing Entity                    Strategic Objective
                                                                                Exposure

 Aga Khan Foundation USA                             Education                     Medium



                                 Planned Audit Coverage


 No special audits planned at this time, although performance under this grant could
 conceivably be audited as part of the performance audit of the Education Sector Reform
 Assistance Program (see page 15).


                                 Risk Assessment Factors


 Nature of Implementing Entity— U.S. and international non-governmental organization.
 The Aga Khan Foundation’s office in Islamabad has one U.S. technical advisor, although the
 head of the office is Pakistani. The Foundation is well known with an international reputation
 and lots of experience. Risk is considered to be low.

 Amount of Funding—Life-of-project funding currently amounts to $1.5 million. The risk is
 considered to be low.

 Implementing Arrangements— This two-year grant for the Releasing Confidence and
 Creativity program will end in March 2004 but may be extended. Implementation, however, is
 complex with four implementing partners and two technical assistance providers. Risk
 exposure is therefore considered to be high.

 Nature of Activities Financed— The program provides technical assistance in the area of
 early childhood education in the provinces of Sindh and Balochistan. The program is being
 established in 100 schools, 50 in each of the two provinces.

 There are, however, security concerns relating to the two provinces. (Note the travel
 restrictions for Sindh and Balochistan which are discussed above on page 13.) The risk
 therefore is considered high for nature of activities financed primarily based on location of the
 schools in rural areas and on overall security concerns.




                                                                                                 18
                                                                                Appendix III

5. Pakistani Teacher Education and Professional Development Program

                                                                            Overall Risk
      Implementing Entity                   Strategic Objective
                                                                             Exposure

 Academy for Educational                           Education                    Medium
 Development (AED)


                                Planned Audit Coverage


 No special audits planned at this time, although performance under this grant could
 conceivably be audited as part of the performance audit of the Education Sector Reform
 Assistance Program (see page 15).


                                Risk Assessment Factors


 Nature of Implementing Entity— U.S. non-governmental organization. The Academy for
 Educational Development is well-known and is familiar with USAID policies and procedures.
 Risk is therefore considered as medium.

 Amount of Funding— Life-of-project funding for this relatively new contract is $5 million.
 Risk is considered to be high.

 Implementing Arrangements— AED will implement the Pakistani Teacher Education and
 Professional Development Program. The program is still in its infancy. AED has an office in
 Islamabad. The office is entirely made up of Pakistani nationals, although decisions as to who
 is chosen to benefit from the program will be shared with USAID personnel. Risk relating to
 these implementing arrangements is medium.

 Nature of Activities Financed— AED is being contracted to provide professional
 development training for Pakistani teachers and administrators. The contract is to provide for
 a certificate program in the U.S. for selected Pakistani educators in the teaching areas of
 mathematics, science, in English as a second language—and to promote academic and cultural
 exchange. The risk is low considering the nature of activities financed.




                                                                                              19
                                                                                 Appendix III

6. Supporting Democratic Development in Pakistan

                                                                             Overall Risk
      Implementing Entity                   Strategic Objective
                                                                              Exposure

 The Asia Foundation (TAF)                        Governance                       High



                                Planned Audit Coverage


 No audit is planned at this time (assuming the program will not be fully funded). However,
 considering the problems experienced in this relatively small program, a performance audit of
 the follow-on program in fiscal year 2005 will be considered.


                                Risk Assessment Factors


 Nature of Implementing Entity— U.S. non-governmental organization.              The Asia
 Foundation is well-known in the region and is familiar with USAID policies and procedures.
 Risk is therefore considered to be medium.

 Amount of Funding— Life-of-project funding is $2.6 million although it is unlikely that the
 program will be fully funded (see paragraphs below). Risk is considered to be medium.

 Implementing Arrangements— The Supporting Democratic Development program requires
 TAF to establish relationships with local media and numerous Pakistani governmental and
 nongovernmental organizations. There have been problems in working with the program’s
 coalition of local non-governmental organizations, and the legislative orientation component
 has not gone as planned. The program is unlikely to be fully funded. Risk exposure is
 considered high in this area.

 Nature of Activities Financed— This program began before the USAID Mission opened and
 consists of numerous activities in the democracy and governance area: activities to improve
 the electoral process at the time of the Pakistani elections; “mapping” Pakistani civil society
 organizations; and building public support for democratic governance reform (through
 workshops for print media, attempting to influence local TV programming, and working with
 a local organization to promote democratic discourse through theater). The program was also
 to provide legislative training at the national and provincial levels.

 There have been implementation problems. A coalition of NGOs which came together to
 implement the program suspended program activities to protest the U.S. role in the Iraq
 conflict, a decision that caused some delay in the program. (Three months later in May 2003
 some—but not all—of these organizations indicated a willingness to again accept USAID
 funding.) In addition, the legislative orientation component has not gone as planned and was
 discontinued as of June 2003. Some activities will be taken up by a new $15.0 million
 Legislative Strengthening grant, which is scheduled to be awarded in September 2003. In
 summary, democracy and governance programs are often very sensitive and hence involve
 more risk than other types of technical assistance. Risk is considered high for "nature of
 activities financed" based on the problems discussed above.

                                                                                               20
                                                                                 Appendix III

7. Developing Open Media in Pakistan Program

                                                                             Overall Risk
      Implementing Entity                   Strategic Objective
                                                                              Exposure

 Internews Network                                Governance                     Medium



                                 Planned Audit Coverage


 No special audits planned at this time.


                                 Risk Assessment Factors


 Nature of Implementing Entity— U.S. non-governmental organization. The Internews
 Network is familiar with USAID polices and procedures and has extensive media experience
 in the nascent media environments of the region (Indonesia, East Timor, Afghanistan, etc.)
 Risk is therefore considered to be low.

 Amount of Funding— Funding for this grant amounts to $1.0 million. Risk is considered to
 be low.

 Implementing Arrangements— The Developing Open Media in Pakistan program is
 working with the Pakistan Telecommunication Company and the Pakistan media regulatory
 authority, interacting with newly licensed stations, and providing journalistic training at the
 University of Peshawar. Risk exposure is considered to be medium.

 Nature of Activities Financed— The program has three objectives: developing media law
 and regulatory environment, improving and expanding radio journalism, and strengthening
 media management. Private electronic media is just opening up in Pakistan. The grant is
 building the capacity of radio journalists to produce news and information-based programs.
 The emphasis is on producing programs that are fair and balanced, and in training women to
 write and produce radio programs.

 There is a risk that privatization of the electronic media may not succeed as there is always a
 potential for government interference. The Internews Network recently reported that newly
 licensed private stations were told by the Pakistan media regulatory authority that they were
 not supposed to broadcast independent news and current affairs—contrary to the authority’s
 mandate. Also radio licensees lack training and technical expertise and most reporters,
 producers, and presenters have virtually no experience in the medium.

 In summary, programs involving governance and the media are often quite sensitive—
 especially in an environment where media were heretofore state-controlled. Risk is therefore
 considered to be high for these activities.




                                                                                               21
